 

COMMONWEALTH of VIRGINIA

Office of the Attorney General

   
 

Mark R. Herring 202 North Ninth
Attorney General Richmond, Virgini

theytens@oag.state.va.us

September 3, 2019

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk

One First Street, N.E.

Washington, D.C. 20543

Re: Jordan v. Va. Dep’t of Corrections, No. 19-235
Dear Mr. Harris:

On August 19, 2019, the petition for a writ of certiorari in the above-
referenced capital case was filed. Pursuant to Sup. Ct. R. 15.1, our mandatory
response is currently due on September 23, 2019. On account of our current
workload, we respectfully request a thirty-day extension of time, until October 23,
2019, to file the response brief.

We thank the Court for its consideration.

Very truly yours,

vob

Solicitor General of Virginia
Counsel of Record for Respondent

ce: James William Craig, Esquire
Counsel for Petitioners
